FR833282333_PAYPAL SMART CONNECT
T&C PLCC PDF [19830A]
03/16

SYNCHRONY BANK
RATES AND FEES TABLE
PAYPAL SMART CONNECT ACCOUNT AGREEMENT
PRICING INFORMATION
Interest Rates and Interest Charges
Annual Percentage
Rate (APR)
for Purchases

The APR for purchases is the prime rate plus 23.74%
This APR will vary with the market based on the Prime Rate.

How to Avoid
Paying Interest

Your due date is at least 23 days after the close of each billing cycle. We will not charge you any interest
on purchases if you pay your entire balance by the due date each month.

Minimum Interest
Charge

If you are charged interest, the charge will be no less than $1.00.

Fees
Penalty Fees
• Late Payment

Up to $35

How We Will Calculate Your Balance: We use a method called “daily balance”. See your credit card account agreement below for
more details.

SECTION II: RATES, FEES AND PAYMENT INFORMATION
PAYPAL SMART CONNECT ACCOUNT AGREEMENT

How Interest is Calculated
Your Interest Rate

The APR for purchases is the prime rate plus 23.74%. We use a daily rate to calculate the interest on the balance on your account each
day. The daily rate for purchases is the APR times 1/365. As of January 1, 2016 the daily rate for purchases was .07464% (APR 27.24%).
Interest will be imposed in amounts or at rates not in excess of those permitted by applicable law.
Daily Rates May Vary. The APR and the daily rate on your account vary with the market based on the prime rate. The prime rate for a
billing cycle is the highest bank prime loan rate published in The Wall Street Journal in its Money Rates section on the last business day
of the calendar month preceding the first day of the billing cycle.
If the prime rate increases, the daily rate and APR will increase. As a result, interest, your total minimum payment and the number of
payments it would take you to pay off your account balance may increase. We apply any change in rates because of a prime rate change
to your entire account balance. A change in the prime rate will take effect on the first day of the first billing cycle after the change. We may
select a new interest rate index if the prime rate is not available.

When We Charge
Interest

We charge interest on your purchases from the date you make the purchase until you pay the purchase in full. See exceptions below.
• We will not charge you interest during a billing cycle on any purchases if:
1. You had no balance at the start of the billing cycle; OR
2. You had a balance at the start of the billing cycle and you paid that balance in full by the due date in that billing cycle.
•	We will credit, as of the start of the billing cycle, any payment you make by the due date that we allocate to purchases if:
1. You had no balance at the start of the previous billing cycle; OR
2. You had a balance at the start of the previous billing cycle and you paid that balance in full by the due date in the previous
billing cycle.

How We Calculate
Interest

We figure the interest charge on your account separately for each balance type. We do this by applying the daily rate to the daily balance
for each day in the billing cycle. A separate daily balance is calculated for the following balance types, as applicable: purchases and
balances subject to different interest rates, plans or special promotions. See below for how this works.
1. How to get the daily balance. We take the starting balance each day, add any new charges and fees, and subtract any payments
or credits. This gives us the daily balance. Debt cancellation fees, if any, are not included in the daily balance. Late payment fees are
treated as new purchases.
2. How to get the daily interest amount. We multiply each daily balance by the daily rate that applies.
3. How to get the starting balance for the next day. We add the daily interest amount in step 2 to the daily balance from step 1.
4. How to get the interest charge for the billing cycle. We add all the daily interest amounts that were charged during the billing cycle.
We charge a minimum of $1.00 of interest in any billing cycle in which you owe interest. This charge is added proportionately to each
balance type.

How Fees Work
Late Payment Fee

We will charge this fee if we do not receive the total minimum payment due on your account by 5 p.m. (ET) on the due date. This fee is
equal to:
1. $25, if you have paid your total minimum payment due by the due date in each of the prior six billing cycles.
OR
2. $35, if you have failed to pay your total minimum payment due by the due date in any one or more of the prior six billing cycles.
The late payment fee will not be more than the total minimum payment that was due.

Minimum Payment Calculation
Your total minimum payment is calculated as follows.
The greater of:
1. $25, or $35 (which includes any past due amounts) if you have failed to pay the total minimum payment due by the due date in any one or more of the prior six
billing cycles.
OR
2. The sum of:
a. Any past due amounts; PLUS
b. 1% of your new balance shown on your billing statement (excluding any balance in connection with a special promotional purchase with a unique payment
calculation); PLUS
c. Any late payment fees charged in the current billing cycle; PLUS
d. All interest charged in the current billing cycle; PLUS
e. Any payment due in connection with a special promotional purchase with a unique payment calculation.
We round up to the next highest whole dollar in figuring your total minimum payment. Your total minimum payment will never be more than your new balance.
Special Promotional Financing Offer Information
At times, we may offer you special financing promotions for certain transactions (“special promotions”). The terms of this Agreement apply to any special promotions.
However, any special promotional terms that are different than the terms in this Agreement will be explained on promotional advertising or other disclosures provided to
you. Below is a description of certain special promotions that may be offered:
• No Interest if Paid in Full Within 6 Months
• No Interest if Paid in Full Within 12 Months

For each promotion, if the promotional balance is not paid in full within the promotional period, interest will
be imposed from the date of purchase at the variable Purchase APR that applies to your account when the
promotional purchase is made.
At the time your account is opened, the variable Purchase APR is 27.24%.

• No Interest if Paid in Full Within 18 Months

Your Purchase APR will vary with the market based on the prime rate.

When you make a qualifying purchase under one of these promotions, no interest will be assessed on the purchase if you pay the following (the “promotional balance”)
in full within the applicable promotional period: (1) the promotional purchase amount, and (2) any related optional credit insurance/debt cancellation charges. If you do
not, interest will be assessed on the promotional balance from the date of the purchase. Minimum monthly payments are required. Regular account terms apply to nonpromotional purchases and, after promotion ends, to promotional purchases. Offers are subject to credit approval. These promotional offers may not be available at all
times for all purchases. Please see any special promotion advertising or other disclosures provided to you for the full terms of any special promotion offered.

SECTION III: STANDARD PROVISIONS
PAYPAL SMART CONNECT ACCOUNT AGREEMENT
ABOUT THE CREDIT CARD ACCOUNT AGREEMENT
This Agreement. This is an Agreement between you and Synchrony Bank, 170 Election Road, Suite 125, Draper, UT 84020, for your credit card account shown
above. By opening or using your account, you agree to the terms of the entire Agreement. The entire Agreement includes the four sections of this document and the
application you submitted to us in connection with the account. These documents replace any other agreement relating to your account that you or we made earlier
or at the same time.
Parties To This Agreement. This Agreement applies to each accountholder approved on the account and each of you is responsible for paying the full amount
due, no matter which one uses the account. We may treat each of you as one accountholder and may refer to each of you as “you” or “your”. Synchrony Bank may
be referred to as “we”, “us” or “our”.
Changes To This Agreement. We may change, add or delete terms of this Agreement, including interest rates, fees and charges.
Special Promotions. The terms of this Agreement apply to any special promotion. However, any special promotional terms that are different than the terms in this
Agreement will be explained on promotional advertising or other disclosures provided to you.

HOW TO USE YOUR ACCOUNT/CARD
Use Of Your Account. You may use your account only for lawful personal, family or household purposes. You may use your Smart Connect Account to fund your
PayPal Account (“PayPal Account”), that you have established with PayPal, Inc. for payments for goods and services purchased by you with your PayPal Account
(“purchases”). You may make purchases up to any credit limit we may establish. We may decline to authorize any purchase or change your credit limit at any time.
You may use your Smart Connect Account, and may authorize others to use your Smart Connect Account, only for personal, family or household purposes.
You Promise To Pay. You promise to pay us for all amounts owed to us under this Agreement.
Your Responsibility. Each accountholder will receive a card. You may not allow anyone else to use your account. If you do, or if you ask us to send a card to
someone else, you will be responsible for paying for all charges resulting from their transactions.
Purchase Limits. To prevent fraud, we may limit the number or dollar amount of purchases you can make in any particular amount of time. We also may decline any
particular charge on your account for any reason.
Credit Limit. You will be assigned a credit limit that we may increase or decrease from time to time. If we approve a purchase that makes you go over your credit
limit, we do not give up any rights under this Agreement and we do not treat it as an increase in your credit limit.

HOW AND WHEN TO MAKE PAYMENTS
When Payments Are Due. You must pay at least the total minimum payment due on your account by 5 p.m. (ET) on the due date of each billing cycle. Payments
received after 5 p.m. (ET) will be credited as of the next day. You may at any time pay, in whole or in part, the total unpaid balance without any additional charge for
prepayment. If you have a balance subject to interest, earlier payment may reduce the amount of interest you will pay. We may delay making credit available on your
account in the amount of your payment even though we will credit your payment when we receive it.
Payment Options. You can pay by mail or online. We may allow you to make payments over the phone but we will charge you a fee to make expedited phone
payments. Your payment must be made in U.S. dollars by physical or electronic check, money order or a similar instrument from a bank located in the United States.
How To Make A Payment. You must follow the instructions for making payments provided on your billing statement. If you do not, credit of your payment may be
delayed up to five days. Your billing statement also explains how information on your check is used.
Payment Allocation. We will apply the required total minimum payment to balances on your account using any method we choose. Any payment you make in
excess of the required total minimum payment will be applied to higher APR balances before lower APR balances. Applicable law may require or permit us to apply
excess payments in a different manner in certain situations, such as when your account has a certain type of special promotion.

INFORMATION ABOUT YOU
Using and Sharing Your Information. When you applied for an account, you gave us and PayPal, Inc. information about yourself that we could share with each
other. PayPal, Inc. will use the information in connection with the credit program and for things like creating and updating its records and offering you special benefits.
More information about how we use and share information is set forth in the privacy policy for your account.
Address/Phone Change. You represent that any phone number that you provide to us belongs to you and/or that you are authorized to provide that number. You
also agree to tell us right away if you change your address or any phone number.
Consent To Communications. You consent to us, as well as any other owner or servicer of your account, contacting you through any channel of communication and for any
purpose, as permitted by applicable law. For informational, servicing or collection related communications, you agree that we may use the phone numbers that you provide to us
to contact your cellular phone or wireless device with text messages, artificial or prerecorded voice calls, and calls made by an automatic telephone dialing system. This consent
applies even if you are charged for the call under your plan. You are responsible for any charges that may be billed to you by your communications carrier when we contact you.
Telephone Monitoring. For quality control, you allow us to listen to and/or record telephone calls between you and us.
Consent to Electronic Disclosures. When you applied for this Account, you agreed to receive Electronic Communications from us regarding your Account, which
may include disclosures required by applicable federal or state law (collectively, “Communications”). These Communications include the Agreement, Statements and
Privacy Policy, disclosures relating to any optional debt cancellation product you elect to purchase, including, without limitation, any Truth in Lending Act disclosures
and other federal and state law disclosures, notices and communications in connection with the application for, the opening of, maintenance or collection of an
Account. Communications may be sent to your email address. Communications may include your name and some information about your Account, including your
balance or the due date for your payment. Electronic Communications may be disclosed to any party with access to your Account or email account or hardware
or software used to view your Account or email account. At our option, we may provide you with paper Communications, such as paper Statements. In addition,
if we provide you with paper Statements, we may switch to providing you with electronic Statements instead upon notice to you, unless you have withdrawn your
consent to receive Electronic Communications as set forth below. You may withdraw your consent to receive Electronic Communications and elect to receive
paper Communications by writing to P.O. Box 965004, Orlando, FL 32896-5004. However, if you do so, we may close your Account to future Purchases and Cash
Advances and you will be required to pay off any balances under the terms that apply to your Account at the time you withdraw your consent.

IMPORTANT INFORMATION ABOUT YOUR ACCOUNT
Closing Your Account. You may close your account at any time by sending a letter to the address shown on your billing statement or calling customer service. We
may close your account at any time, for any reason. If your account is closed, you must stop using it. You must still pay the full amount you owe and this Agreement
will remain in effect until you do.
Collection Costs. If we ask an attorney who is not our salaried employee to collect your account, we may charge you our collection costs. These include court
costs and reasonable attorneys’ fees.
Credit Bureau Reporting. We may report information about your account to credit bureaus. Late payments, missed payments, or other defaults on your
account may be shown in your credit report. Tell us if you think we reported wrong information about you to a credit bureau. Write to us at P.O. Box 965005,
Orlando, FL 32896-5005. Tell us what information is wrong and why you think it is wrong. If you have a copy of the credit report that includes the wrong information,
send us a copy.
Default. You are in default if you make a late payment, do not follow any other term of this Agreement or become bankrupt or insolvent. If you default or upon your
death, we may (a) request payment of the full amount due right away, (b) take legal action to collect the amounts owed, and/or (c) take any other action allowed.
Disputed Amounts. The billing rights summary in section IV of this Agreement describes what to do if you think there is a mistake on your bill. If you
send us correspondence about a disputed amount or payment, you must send it to the address for billing inquiries. We do not give up any rights under
this Agreement if we accept a payment marked “payment in full” or given with any other conditions or limitations.
Unauthorized Use. If your card is lost, stolen or used without your consent, call us immediately at 1-866-571-3012. You will not be liable for unauthorized use on
your account, but you will be responsible for all use by anyone you give your card to or allow to use your account.

IMPORTANT INFORMATION ABOUT THIS AGREEMENT
Assignment. We may sell, assign or transfer any or all of our rights or duties under this Agreement or your account, including our rights to payments. We do not have
to give you prior notice of such action. You may not sell, assign or transfer any of your rights or duties under this Agreement or your account.
PayPal Account. You are not required to apply and/or have a Smart Connect Account in order to have a PayPal Account, but you must have a PayPal Account
in good standing in order to apply and/or have a Smart Connect Account. If your PayPal Account is suspended, limited or closed for any reason, including but not
limited to, a breach of any of the terms of the PayPal Account user agreement, then you understand that you will not be able to use this Smart Connect Account. In
addition, if you are in default under this Agreement, then your PayPal Account may be suspended or canceled at PayPal, Inc.’s sole discretion.
Assignment of Rights in Certain Funds Held By PayPal. If you obtain a credit from us for any purchase, you agree that effective as of the time when such credit
is issued, you will be deemed to have transferred to us any of your rights or interests in any funds held by PayPal for your benefit or otherwise, that resulted, directly
or indirectly, from such purchase.
Enforceability. If any part of this Agreement is found to be void or unenforceable, all other parts of this Agreement will still apply.
Governing Law. Except as provided in the Resolving a Dispute with Arbitration section, this Agreement and your account are governed by federal law and, to the
extent state law applies, the laws of Utah without regard to its conflicts of law principles. This Agreement has been accepted by us in Utah.
Waiver. We may give up some of our rights under this Agreement. If we give up any of our rights in one situation, we do not give up the same right in another situation.

RESOLVING A DISPUTE WITH ARBITRATION
PLEASE READ THIS SECTION CAREFULLY. IF YOU DO NOT REJECT IT, THIS SECTION WILL APPLY TO YOUR ACCOUNT, AND MOST DISPUTES
BETWEEN YOU AND US WILL BE SUBJECT TO INDIVIDUAL ARBITRATION. THIS MEANS THAT: (1) NEITHER A COURT NOR A JURY WILL RESOLVE
ANY SUCH DISPUTE; (2) YOU WILL NOT BE ABLE TO PARTICIPATE IN A CLASS ACTION OR SIMILAR PROCEEDING; (3) LESS INFORMATION WILL
BE AVAILABLE; AND (4) APPEAL RIGHTS WILL BE LIMITED.
• What claims are subject to arbitration
1. If either you or we make a demand for arbitration, you and we must arbitrate any dispute or claim between you or any other user of your account, and
us, our affiliates, agents and/or PayPal, Inc., if it relates to your account, except as noted below.
2. We will not require you to arbitrate: (1) any individual case in small claims court or your state’s equivalent court, so long as it remains an individual case
in that court; or (2) a case we file to collect money you owe us. However, if you respond to the collection lawsuit by claiming any wrongdoing, we may
require you to arbitrate.
3. Notwithstanding any other language in this section, only a court, not an arbitrator, will decide disputes about the validity, enforceability, coverage or scope
of this section or any part thereof (including, without limitation, the next paragraph of this section and/or this sentence). However, any dispute or argument
that concerns the validity or enforceability of the Agreement as a whole is for the arbitrator, not a court, to decide.
• No Class Actions
YOU AGREE NOT TO PARTICIPATE IN A CLASS, REPRESENTATIVE OR PRIVATE ATTORNEY GENERAL ACTION AGAINST US IN COURT
OR ARBITRATION. ALSO, YOU MAY NOT BRING CLAIMS AGAINST US ON BEHALF OF ANY ACCOUNTHOLDER WHO IS NOT AN
ACCOUNTHOLDER ON YOUR ACCOUNT, AND YOU AGREE THAT ONLY ACCOUNTHOLDERS ON YOUR ACCOUNT MAY BE JOINED IN A
SINGLE ARBITRATION WITH ANY CLAIM YOU HAVE.
If a court determines that this paragraph is not fully enforceable, only this sentence will remain in force and the remainder will be null and void, and the court’s
determination shall be subject to appeal. This paragraph does not apply to any lawsuit or administrative proceeding filed against us by a state or federal
government agency even when such agency is seeking relief on behalf of a class of borrowers, including you. This means that we will not have the right to
compel arbitration of any claim brought by such an agency.
• How to start an arbitration, and the arbitration process
1. The party who wants to arbitrate must notify the other party in writing. This notice can be given after the beginning of a lawsuit or in papers filed in the lawsuit.
Otherwise, your notice must be sent to Synchrony Bank, Legal Operation, P.O. Box 29110, Shawnee Mission, KS 66201-5320, ATTN: ARBITRATION
DEMAND. The party seeking arbitration must select an arbitration administrator, which can be either the American Arbitration Association (AAA),
1633 Broadway, 10th Floor, New York, NY 10019, www.adr.org, 1-800-778-7879, or JAMS, 620 Eighth Avenue, 34th Floor, New York, NY 10018,
www.jamsadr.com, 1-800-352-5267. If neither administrator is able or willing to handle the dispute, then the court will appoint an arbitrator.
2. If a party files a lawsuit in court asserting claim(s) that are subject to arbitration and the other party files a motion with the court to compel arbitration,
which is granted, it will be the responsibility of the party asserting the claim(s) to commence the arbitration proceeding.
3. The arbitration administrator will appoint the arbitrator and will tell the parties what to do next. The arbitrator must be a lawyer with at least ten years of
legal experience. Once appointed, the arbitrator must apply the same law and legal principles, consistent with the FAA, that would apply in court, but
may use different procedural rules. If the administrator’s rules conflict with this Agreement, this Agreement will control.
4. The arbitration will take place by phone or at a reasonably convenient location. If you ask us to, we will pay all the fees the administrator or arbitrator
charges, as long as we believe you are acting in good faith. We will always pay arbitration costs, as well as your legal fees and costs, to the extent you
prevail on claims you assert against us in an arbitration proceeding which you have commenced.
• Governing Law for Arbitration
	This Arbitration section of your Agreement is governed by the Federal Arbitration Act (FAA). Utah law shall apply to the extent state law is relevant under the
FAA. The arbitrator’s decision will be final and binding, except for any appeal right under the FAA. Any court with jurisdiction may enter judgment upon the
arbitrator’s award.
• How to reject this section
	
You may reject this Arbitration section of your Agreement. If you do that, only a court may be used to resolve any dispute or claim. To
reject this section, you must send us a notice within 60 days after you open your account or we first provided you with your right to reject
this section. The notice must include your name, address and account number, and must be mailed to Synchrony Bank, P.O. Box 965012,
Orlando, FL 32896-5012. This is the only way you can reject this section.

SECTION IV: OTHER IMPORTANT INFORMATION
PAYPAL SMART CONNECT ACCOUNT AGREEMENT
This section of the agreement includes state notices, billing rights summary and rewards terms (if applicable) and is not required to be provided as part of the credit
card agreement posted online or provided to the CFPB.

FR833282333_PAYPAL SMART CONNECT
T&C PLCC PDF [19830A]
03/16

